APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Order and Amended Memorandum in
the United States Court of Appeals for
the Ninth Circuit
(December 20, 2019) . . . . . . . . . . . App. 1
Appendix B Order (1) Denying Motion to Strike
Petition; and (2) Granting Deedy’s
Petition for Writ of Habeas Corpus
Under 28 U.S.C. § 2241 in the United
States District Court for the District of
Hawai’i
(August 10, 2018) . . . . . . . . . . . . . App. 8
Appendix C Judgment in a Civil Case in the
United States District Court for the
District of Hawai’i
(August 10, 2018) . . . . . . . . . . . . App. 51

App. 1

APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16632
D.C. No. 1:18-cv-00094-DKW-RLP
District of Hawaii, Honolulu
[Filed December 20, 2019]
_____________________________
CHRISTOPHER DEEDY,
)
)
Petitioner-Appellee,
)
)
v.
)
)
RUSSELL A. SUZUKI et al.,
)
)
Respondents-Appellants. )
_____________________________ )
ORDER
Before: GRABER, M. SMITH, and WATFORD, Circuit
Judges.
The memorandum disposition filed on November 7,
2019, is amended by the majority memorandum
disposition and by Judge Smith’s partial dissent filed
concurrently with this order.
With these amendments, the panel has voted to
deny Appellee’s petition for panel rehearing and

App. 2
rehearing en banc, Docket Entry No. 35, and to deny
Appellants’ petition for rehearing en banc, Docket
Entry No. 36.
The full court has been advised of the petitions for
rehearing en banc, and no judge of the court has
requested a vote on them.
Appellee’s petition for panel rehearing and
rehearing en banc and Appellants’ petition for
rehearing en banc are DENIED. No further petitions
for panel rehearing or rehearing en banc may be filed.

App. 3
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
No. 18-16632
D.C. No. 1:18-cv-00094-DKW-RLP
[Filed December 20, 2019]
_____________________________
CHRISTOPHER DEEDY,
)
)
Petitioner-Appellee,
)
)
v.
)
)
RUSSELL A. SUZUKI et al.,
)
)
Respondents-Appellants. )
_____________________________ )
AMENDED MEMORANDUM*
Appeal from the United States District Court
for the District of Hawaii
Derrick Kahala Watson, District Judge, Presiding
Argued and Submitted October 21, 2019
Honolulu, Hawaii

*

This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.

App. 4
Before: GRABER, M. SMITH, and WATFORD, Circuit
Judges.
Petitioner Christopher Deedy filed a 28 U.S.C.
§ 2241 habeas petition, seeking, on double jeopardy
grounds, to prevent the State of Hawaii from retrying
him on charges of manslaughter, first-degree assault,
and second-degree assault. The district court granted
his petition, holding that the trial court had acquitted
Petitioner of all three charges at his first trial. The
State timely appeals. Reviewing de novo, Wilson v.
Belleque, 554 F.3d 816, 828 (9th Cir. 2009), we affirm
in part and reverse in part.
1. The Rooker-Feldman doctrine did not bar the
district court from exercising jurisdiction over the
§ 2241 petition. We rejected this jurisdictional
argument in Gouveia v. Espinda, 926 F.3d 1102,
1107–10 (9th Cir. 2019).
2. Petitioner did not forfeit his double jeopardy
claim as to manslaughter. Before his second trial for
second-degree murder began, Petitioner moved for the
trial court not to instruct the jury on manslaughter,
arguing that doing so would put him in double jeopardy
for that offense. And Petitioner renewed that argument
at the charge conference.
3. The Double Jeopardy Clause forbids the State
from retrying Petitioner for manslaughter because he
was acquitted of manslaughter at his first trial. An
acquittal encompasses “any ruling that the
prosecution’s proof is insufficient to establish criminal
liability for an offense.” Evans v. Michigan, 568 U.S.
313, 318 (2013). At the first trial, the trial court

App. 5
explicitly stated that there was no evidence in the
record to support instructing the jury on manslaughter,
and the court did not instruct the jury on
manslaughter.
Although federal law determines whether a
prosecution violates the Double Jeopardy Clause, the
Supreme Court has looked to state law to determine
whether a state court’s decision constituted an
acquittal. Id. at 320. Hawaii law requires trial courts to
instruct juries on any lesser-included offense that has
“a rational basis in the evidence,” regardless of whether
“the prosecution requests, or the defense objects to,
such an instruction.” State v. Adviento, 319 P.3d 1131,
1148 (Haw. 2014) (quoting State v. Haanio, 16 P.3d
246, 248 (Haw. 2001)). Under Hawaii law,
manslaughter is a lesser-included offense of seconddegree murder. Thus, by explicitly stating that there
was no evidence to support a manslaughter instruction,
and by refusing to instruct the jury on manslaughter,
the trial court determined that the State’s proof was
insufficient to establish Petitioner’s criminal liability
for that offense. It does not matter that the trial court
did not label the ruling an “acquittal” or that the ruling
might have been (according to the State) wrong. See
Evans, 568 U.S. at 318, 325 (stating that an acquittal
precludes retrial “even if the acquittal is based upon an
egregiously erroneous foundation” (internal quotation
marks omitted)).
4. Assuming, without deciding, that Petitioner did
not forfeit his double jeopardy claims as to the two
assault charges, the Double Jeopardy Clause does not
forbid the State from retrying him. At first glance, the

App. 6
trial court’s decision not to instruct the jury on assault
at the first trial appears to represent, under the
Adviento rule, an implicit determination that the
State’s proof was insufficient to convict Petitioner of
either assault charge. But, during the charge
conference at the second trial, the trial court explained
that it was legally unclear at the time of the first trial
whether assault was a lesser-included offense of
second-degree murder under Hawaii law. The Hawaii
Supreme Court answered that question affirmatively
well after the first trial ended. State v. Kaeo, 323 P.3d
95, 96 (Haw. 2014).
Thus, we know that “the substance of [the] court’s
decision” was not a determination that the State failed
to introduce sufficient evidence to convict Petitioner of
the assault charges. Evans, 568 U.S. at 322.
Accordingly, because there was a hung jury on the
assault charges at the second trial, the State may retry
Petitioner again for first- and second-degree assault.
5. In his petition for rehearing, Petitioner argues
that the State abandoned its opportunity to retry the
assaults or is estopped from doing so. The district court
may consider those arguments on remand.
AFFIRMED IN PART, REVERSED IN PART,
and REMANDED. The parties shall bear their own
costs on appeal.

App. 7
M. SMITH, Circuit Judge, concurring in part and
dissenting in part: In my view, the abandonment
theory advanced by Petitioner is indistinguishable from
his double jeopardy claims and need not be considered
on remand. In any case, even if we were to consider his
argument separately, Petitioner cannot point to any
“deliberate trial strategy” employed by the prosecution
to prevent a jury from considering the assault charges.
United States v. Cavanaugh, 948 F.2d 405, 417 (8th
Cir. 1991). At the first trial, the assault charges were
not discussed by any of the parties or the judge, and at
the second trial, the jury was instructed on assault and
could not reach a verdict. See United States v.
Richardson, 468 U.S. 317, 318, 324–25 (1984).
Petitioner’s collateral estoppel argument at the district
court level only pertains to his reckless manslaughter
charge, and because we have affirmed the district
court’s grant of the writ on that charge, there is
nothing left for the district court to consider upon
remand. Petition for Writ of Habeas Corpus at 23–26,
Deedy v. Suzuki, 326 F.Supp.3d 1022 (D. Haw. Apr. 6,
2018) (No. 1:18-cv-00094-DKW-RLP).
Respectfully, I would reject Petitioner’s abandonment
and estoppel arguments, rather than allow them to be
considered upon remand.

App. 8

APPENDIX B
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF HAWAI’I
CIVIL NO. 18-00094 DKW-RLP
[Filed August 10, 2018]
__________________________
CHRISTOPHER DEEDY,
)
)
Petitioner,
)
)
v.
)
)
RUSSELL SUZUKI, et al., )
)
Respondents. )
__________________________ )
ORDER (1) DENYING MOTION TO STRIKE
PETITION; AND (2) GRANTING DEEDY’S
PETITION FOR WRIT OF HABEAS CORPUS
UNDER 28 U.S.C. § 2241
INTRODUCTION
In 2013, the State tried Deedy on second-degree
murder and related firearms charges arising out of the
November 2011 death of Kollin Elderts. The trial
resulted in a hung jury. In Deedy’s second trial in 2014,
a jury acquitted him of second-degree murder, but
deadlocked on lesser included reckless manslaughter
and assault offenses. In October 2018, Deedy is

App. 9
scheduled to be retried in state circuit court for
reckless manslaughter and assault following the
Hawaii Supreme Court’s December 2017 determination
that the retrial will not violate his double jeopardy
rights.
Deedy now seeks a writ of habeas corpus under 28
U.S.C. § 2241. Deedy asserts that the Double Jeopardy
Clause of the United States Constitution forbids the
State from trying him for a third time because: (1) the
circuit court’s ruling at the first trial that there was no
evidence of recklessness amounts to an acquittal that
bars further prosecution for reckless manslaughter or
any included offenses; (2) that same 2013 ruling
collaterally estops the State from re-litigating
recklessness or any included offenses; and (3) the State
abandoned reckless manslaughter and any included
offenses as theories of prosecution.
After careful review of the record, arguments of
counsel, and consideration of the relevant authorities,
including the Supreme Court’s decision in Evans v.
Michigan, 568 U.S. 313 (2013), the circuit court’s
determination of the absence of evidence of
recklessness, and resulting decision not to instruct or
submit the reckless manslaughter claim to the jury
during the first trial, is an “acquittal” for purposes of
double jeopardy. The State accordingly may not proceed
with Deedy’s October 2018 retrial on reckless
manslaughter or any included offenses without
violating constitutional prohibitions. Deedy’s Section
2241 Petition is GRANTED.

App. 10
BACKGROUND
On November 5, 2011, Deedy fatally shot Kollin
Elderts during an altercation at a fast food restaurant.
He was indicted by a grand jury on November 16, 2011,
and charged in a two-count Indictment: Count 1
charged second-degree murder, in violation of Hawaii
Revised Statutes (“HRS”) § 707-701.5, while Count 2
charged him with using a firearm to commit the offense
charged in Count 1, in violation of HRS § 134-21. Ex. C,
Dkt. No. 1-4. The Indictment also subjected Deedy to
conviction on lesser included offenses, such as reckless
manslaughter and assault.1 Id.
I. Deedy’s First Trial
Deedy’s first trial spanned July and August 2013.
Because the Indictment expressly charged lesser
included offenses under Count 1, the State was
permitted to adduce evidence of such offenses, or argue
them as alternative theories of guilt. The State,
however, did neither. Instead, the State advanced a

1

See, e.g., State v. Austin, --- P.3d ---, 2018 WL 3207140, at *17
(Haw. June 29, 2018) (recognizing that “manslaughter and assault
in the first, second, and third degrees are lesser included offenses
of the charged offense, murder in the second degree”); State v.
Knight, 80 Hawai’i 318, 324, 909 P.2d 1133, 1139 (1996) (“Reckless
manslaughter is an included offense of second degree murder.”);
State v. Kaeo, 132 Hawai’i 451, 465, 323 P.3d 95, 109 (2014)
(“assault in the first degree is a lesser included offense of murder
in the second degree”).

App. 11
theory that Deedy was guilty of second-degree murder,
but not of any lesser included offenses.2
2

Second degree murder is the offense of “intentionally or
knowingly caus[ing] the death of another person.” HRS § 707701.5(1). Under HRS § 707-702(1)(a), “(1) A person commits the
offense of manslaughter if: (a) He recklessly causes the death of
another person[.]” A person commits assault in the first degree if
he or she “intentionally or knowingly causes serious bodily injury
to another person.” HRS § 707-710. A person commits assault in
the second degree if he or she “intentionally or knowingly causes
substantial bodily injury to another” or “recklessly causes serious
bodily injury to another person.” HRS § 707-711.
The elements of second degree murder include a “conduct”
element, the voluntary act or omission of the defendant, and a
“results of conduct” element, resulting in the death of another
person. Both elements require harboring an intentional or knowing
state of mind. HRS § 702-204 (requiring proof of specified state of
mind to convict). See State v. Aganon, 97 Hawai’i 299, 303, 36 P.3d
1269, 1273 (2001). Under Hawaii law, a person acts intentionally
with respect to conduct when it is his or her “conscious object” to
engage in that conduct, and a person acts knowingly with respect
to his conduct when he is aware that his conduct is of that nature.
HRS §§ 702-206(1)(a) and (2)(a). A person acts intentionally with
respect to the result of his conduct when it is his “conscious object
to cause such a result,” and he acts knowingly with respect to the
result of his conduct when he is “aware that it is practically certain
that his conduct will cause such a result.” HRS §§ 702-206(1)(c)
and (2)(c).

Reckless manslaughter requires similar “conduct” (a voluntary act
or omission) and “results of conduct” (death of another) elements
as second degree murder. Compare HRS § 707-701.5(1)
(proscribing “caus[ing] the death of another person”) with HRS
§ 707-702(1)(a) (prohibiting “caus[ing] the death of another
person”). Reckless manslaughter and second degree murder vary,
however, with respect to the required state of mind. A “person acts
recklessly with respect to his conduct when he consciously
disregards a substantial and unjustifiable risk that the person’s

App. 12
During its opening statement, the State argued that
the evidence would support the charged offense of
second-degree murder by use of a firearm. The parties
did not propose lesser included offense instructions
and, in fact, specifically objected to instructing the jury
on reckless manslaughter. Ex. D (8/13/13 Tr. at 46);
Dkt. No. 1-5; Respondents’ Excerpts of Record (“ER”) at
64–140; Dkt. No. 21-3 (Proposed Jury Instructions).
The circuit court saw it precisely the same way:
THE COURT:

Both of you asked that a
manslaughter instruction not
be given. And from what I can
recall of the evidence as to that
final shot, I don’t think there’s
any evidence to support
manslaughter, anyway.

MR. FUDO:

Support reckless manslaughter.

THE COURT:

Yeah.

MR. FUDO:

Okay.

THE COURT:

I don’t think so, not as to that
final shot.

conduct is of the specified nature.” HRS § 702-206(3)(a). Likewise,
a person acts recklessly with regard to the result of his conduct
when he “consciously disregards a substantial and unjustifiable
risk that his conduct will cause such a result.” HRS § 702-206(3)(c).
A risk is “substantial and unjustifiable,” when, “considering the
nature and purpose of the person’s conduct and the circumstances
known to him, the disregard of the risk involves a gross deviation
from the standard of conduct that a law-abiding person would
observe in the same situation.” HRS § 702-206(3)(d).

App. 13
MR. FUDO:

Not as to the lethal shot, right?

THE COURT:

I’m sorry. The lethal shot.
Exactly.

8/13/13 Tr. at 46. As a result, the circuit court ruled
that it would not instruct the jury on reckless
manslaughter or on any other included offense.3
During closing argument, the prosecution reiterated
its sole theory of guilt, urging the jury to convict Deedy
of second-degree murder and the related firearms
charge. Correspondingly, the circuit court instructed
the jury only on the same two offenses. The jury
deadlocked after five days of deliberation, and unable
to reach a verdict, the circuit court declared a mistrial.

3

Hawaii law, in effect at the time of the first trial in 2013, required
the circuit court to “instruct juries as to any included offenses
when ‘there is a rational basis in the evidence for a verdict
acquitting the defendant of the offense charged and convicting the
defendant of the included offense.’” State v. Haanio, 94 Hawai’i
405, 413, 16 P.3d 246, 254 (2001) (quoting HRS § 701-109(5)
(1993)), overruled on other grounds by State v. Flores, 131 Hawai’i
43, 314 P.3d 120 (2013). Flores, decided several months after the
mistrial was declared in Deedy’s first trial, held that “Haanio is
overruled to the extent that it holds the trial court’s error in failing
to give included offense instructions is harmless if the defendant
was convicted of the charged offense or of a greater included
offense.” Flores, 131 Hawai’i at 57, 314 P.3d at 134. Flores,
however, did not change the general rule regarding the circuit
court’s obligation to instruct the jury on lesser included offenses.
Id., 131 Hawai’i at 51, 314 P.3d at 128 (“[J]ury instructions on
lesser-included offenses must be given where there is a rational
basis in the evidence for a verdict acquitting the defendant of the
offense charged and convicting the defendant of the included
offense.”).

App. 14
II. Deedy’s Second Trial
The second trial, held a year later in 2014, covered
sixteen days. Although the prosecution’s evidence
generally mirrored the evidence that it presented at the
first trial, the circuit court, over the parties’ objections,
instructed the second jury not only on second-degree
murder under Count 1, but on reckless manslaughter
(HRS § 707-702(1)(a)), first-degree assault (HRS § 707710), and second-degree assault (HRS § 707-711),
which it declined to do during the first trial.
Prior to the commencement of the second trial,
Deedy filed a “Motion to Exclude Reckless
Manslaughter Jury Instruction.” See Ex. K (6/24/14
Motion), Dkt. No. 24-1. Deedy’s motion argued, in part,
that even if the circuit court determined that there was
a rational basis in the evidence that supported
instructing the jury on reckless manslaughter, double
jeopardy barred it from doing so. More specifically,
Deedy asserted that by declining to instruct the jury on
reckless manslaughter during the first trial due to the
absence of evidence, the circuit court had acquitted
Deedy of that offense for double jeopardy purposes. Ex.
K at 10–12.4

4

Deedy also argued in the pretrial motion that there was no basis
for revisiting law of the case on this issue, because at the first trial,
neither party requested a jury instruction on reckless
manslaughter and both objected to giving such an instruction
because there was no rational basis in the evidence for doing so.
He asserted that the circuit court expressly ruled, in accord with
state case law, that no instruction on reckless manslaughter would
be given because there was no rational basis in the evidence for
acquitting on murder but convicting on reckless manslaughter, and

App. 15
At the close of the evidence, just as they had done
during the first trial, the parties objected to submitting
instructions on the included offenses because there was
no evidentiary basis to do so under applicable state
law. At the August 1, 2014 settlement of jury
instructions and hearing on Deedy’s motion, the
defense argued that the circuit court’s prior
instructional ruling—regardless of the label or
correctness of the decision—was a resolution of some or
all of the elements of the lesser offense, which under
federal law, constituted an acquittal:
MR. OTAKE:

. . . the ruling of a judge,
whatever its label, actually
represents a resolution, correct
or not, of some or all of the
factual elements of the offense
at issue[,] [and] the category of
acquittals include judgments by
the court that the evidence is
insufficient to convict. And it
doesn’t matter if the ruling was
infected
with
error,
misunderstanding, or whatnot.

THE COURT:

Is this a judgment?

MR. OTAKE:

When you look at Exhibit A [the
8/13/13 Tr.] -- the point of those
cases is it doesn’t matter what
it is. It --

that neither the evidence on Deedy’s state of mind nor applicable
case law had changed since the first trial. Ex. K at 2.

App. 16
THE COURT:

It’s not a legal judgment, I
mean, in the sense of a piece of
paper saying this is the
judgment.

MR. OTAKE:

It’s not. And -- but it does -- the
point is it’s a finding.
****
So following a lengthy first trial
the Court found that there
wasn’t any evidence to support
reckless manslaughter, and
that finding was, in essence,
saying that there was not
evidence to support a conviction
for reckless manslaughter. And
as the United States Supreme
Court says, it doesn’t matter
what you call it. If there’s a
finding like that, for double
jeopardy purposes it’s an
acquittal. And so -- and it
doesn’t matter if the Court -you know, it doesn’t matter.
What matters is that for double
jeopardy purposes the State
doesn’t get another try to do
that.

8/1/14 Tr. at 10–12. While the State disagreed with
Deedy’s double jeopardy conclusions, it concurred with
the defense that the evidence again did not support
giving the lesser included instruction: “just as in last

App. 17
year, we maintain that same position that there’s not
a rational basis in the evidence to support the giving of
the manslaughter instruction.” 8/1/14 Tr. at 23.
Demonstrating that conviction, the State, in its closing
argument, urged the second jury to convict Deedy of
murder in the second degree, and not on any of the
included offenses, because the evidence did not support
those offenses under Count I. Ex. I (8/5/14 Tr. at
49–79), Dkt. No. 1-10; Ex. J (8/5/14 Tr. at 150–81), Ex.
1-11.5
The circuit court nonetheless denied Deedy’s
motion, concluding that its decision during the first
trial was not tantamount to an acquittal because the
court did not determine Deedy’s “guilt or innocence.”
8/1/14 Tr. at 27. The circuit court attempted to explain
its reasoning in the following manner—
After the first trial, the Court apparently
said that it didn’t think there was evidence to
support a manslaughter instruction, in other
words, that there was insufficient evidence to
clearly require a lesser instruction, under
this Court’s interpretation of what a rational
basis may require. Hence, this represented
an evaluation based upon the rational basis

5

The State told the jury it should not convict on the assault
offenses because the evidence did not support finding that only
serious bodily injury, rather than death, occurred. 8/5/14 Tr. at
24–25; The prosecution also urged jurors not to convict on reckless
manslaughter or reckless assault, because the evidence did not
support finding recklessness, in view of Deedy’s uncontested
testimony about his intentional state of mind when discharging his
firearm. 8/5/14 Tr. at 21–25.

App. 18
test not a resolution or determination of guilt
or innocence or the existence of any given
element.
8/1/14 Tr. at 26–27. The circuit court also overruled the
parties’ objections, and concluded that, this time
around, there was a rational basis in the evidence to
give jury instructions on reckless manslaughter and
the assault offenses, and it did so. 8/1/14 Tr. at 29;
39–45.
After deliberating for six days, the jury acquitted
Deedy of second-degree murder, but was deadlocked on
all of the lesser included offenses. The circuit court
thereafter entered a not guilty verdict on the seconddegree murder charge and concluded that Deedy could
be retried on the lesser included offenses on which the
second jury hung.
Deedy filed several motions to dismiss on November
26, 2014, specifically raising the federal constitutional
claims at issue in this Petition, along with several
additional state law claims. Following a hearing, the
circuit court denied his motions in an April 24, 2015
minute order, Ex. G (4/24/15 Cir. Ct. Minute Order),
Dkt. No. 1-8, and in a May 19, 2015 order that
addressed Deedy’s federal claims. Ex. H (5/19/15 Cir.
Ct. Order), Dkt. No. 1-9.
III.

Deedy’s Interlocutory Appeal to the Hawaii
Supreme Court

Deedy filed an interlocutory appeal from the circuit
court’s orders denying his motions to dismiss, which
was transferred to the Hawaii Supreme Court. Ex. O,
Dkt. No. 24-5. In that appeal, Deedy raised federal

App. 19
double jeopardy claims along with other claims he does
not pursue in his Petition, including those based on
state constitutional and statutory provisions. The
Hawaii Supreme Court, in a 4-1 decision, affirmed the
circuit court’s rulings and held that the State was not
barred from further retrial on reckless manslaughter
and the included assault offenses. State v. Deedy, 141
Hawai’i 208, 407 P.3d 164 (Dec. 14, 2017).
In doing so, the majority rejected Deedy’s acquittal
argument based, in part, upon its characterization of
the circuit court’s ruling as “procedural in nature,” and
ultimately determined that “a trial court’s ruling on
whether to issue jury instructions on lesser included
offenses does not constitute an acquittal for double
jeopardy purposes.” 141 Hawai’i at 220, 407 P.3d at 176
(citing Evans, 568 U.S. at 319–20) (explaining that
procedural rulings that result in dismissals are not
acquittals that implicate double jeopardy concerns); see
also 141 Hawai’i at 219, 407 P.3d at 175 (holding that
“a trial court’s decision resolving the issue of whether
to give or withhold certain jury instructions is not a
‘resolution ... of some or all of the factual elements of
the offense charged’ and, thus, does not constitute an
acquittal”) (quoting State v. Dow, 72 Haw. 56, 65, 806
P.2d 402, 407 (1991)) (alteration in original) (additional
citation omitted).
In rejecting Deedy’s claim of acquittal on the lesser
included offenses, the Hawaii Supreme Court was
particularly concerned with a perceived lack of circuit
court authority, in view of Hawaii Rule of Penal

App. 20
Procedure (“HRPP”) 29, to pronounce an acquittal
under the situation presented here.6 It declared that:
the ‘acquittal’ rule does not apply to lesser
included offenses where the greater charge
has not been resolved by the factfinder, as
was the case in Deedy’s first trial. Cases
decided by this court and the Supreme Court
did not involve the situation postulated by
Deedy—where the defendant is deemed to
have been acquitted of included offenses for
double jeopardy purposes even though
resolution of a greater charge is pending.
141 Hawai’i at 219, 407 P.3d at 175 (citing State v.
Poohina, 97 Hawai’i 505, 510, 40 P.3d 907, 912 (2002);
Dow, 72 Haw. at 65, 806 P.2d at 407; Evans, 568 U.S.
at 315–16; United States v. Martin Linen Supply Co.,
430 U.S. 564, 571–72 (1977)). Indeed, the Hawaii
Supreme Court insisted that “a court lacks authority to
grant a judgment of acquittal of included offenses
before granting an acquittal of the greater offense, and
indisputably, the circuit court did not grant an
acquittal of the greater offense in the first trial in this
case.” 141 Hawai’i at 219, 407 P.3d at 175.

6

The Hawaii Supreme Court determined that HRPP 29(a)
“provides no authority for a trial court to acquit a defendant of an
included offense without first acquitting the defendant of the
greater charge then pending before the factfinder. That is, HRPP
Rule 29(a) would not have allowed the circuit court in this case to
acquit Deedy of the included offenses of reckless manslaughter,
assault in the first degree, and assault in the second degree
without first acquitting him of second-degree murder.” 141 Hawai’i
at 219, 407 P.3d at 175.

App. 21
The Hawaii Supreme Court remanded to the circuit
court for further proceedings. 141 Hawai’i at 234, 407
P.3d at 190. Deedy’s third trial in circuit court is set to
commence on October 15, 2018 on a lead charge of
reckless manslaughter. Pet. ¶ 8.
IV. Deedy’s Section 2241 Petition
Deedy’s Section 2241 Petition seeks to bar further
retrial on the counts in the Indictment. It asserts three
grounds, each seeking to vindicate his right against
double jeopardy under the Fifth Amendment to the
United States Constitution: (1) the circuit court’s ruling
at the first trial that there was no evidence of
recklessness as to the fatal shot was an acquittal that
bars further prosecution under Count 1 for reckless
manslaughter or any included offense; (2) that same
finding collaterally estops the State from re-litigating
recklessness or any included offense under Count 1;
and (3) the State abandoned second-degree murder’s
lesser included offenses, including reckless
manslaughter, as theories of prosecution. Pet. ¶ 2.
The Petition seeks a ruling from this Court that
would not only preclude Deedy’s further prosecution in
the state courts for the death of Elderts, but would
direct Respondents to dismiss Cr. No. 11-1-1647 with
prejudice and order Respondents to discharge him from
bail and pretrial release. Pet. ¶ 12. Respondents
Russell Suzuki, Attorney General, State of Hawai’i;
Keith M. Kaneshiro, Prosecuting Attorney for the City
and County of Honolulu; and Nolan Espinda, Director,
Department of Public Safety, State of Hawai’i
(collectively, “Respondents”), filed a response in

App. 22
opposition to the Petition on May 21, 2018. Dkt. No. 21.
Deedy filed his reply on June 20, 2018. Dkt. No. 24.
On April 20, 2018, Respondent Kaneshiro filed a
Motion to Strike Deedy’s Petition and Deedy’s
Memorandum in Support, Dkt. No. 14, raising
procedural defects in the filings. Deedy filed an
opposition to the Motion to Strike on May 20, 2018,
Dkt. No. 19, and there was no reply.
Following briefing from the parties and a hearing on
April 25, 2018, the Court denied without prejudice
Deedy’s Motion to Stay State Court Proceedings, Dkt.
No. 5, and Motion to Expand the Record and for an
Evidentiary Hearing, Dkt. No. 6. See Dkt. No. 16
(4/25/18 EP).
STANDARD OF REVIEW
Habeas relief is proper under Section 2241 when the
petitioner shows that a retrial would violate his or her
Fifth Amendment right against double jeopardy. See
Wilson v. Belleque, 554 F.3d 816, 821 (9th Cir. 2009) (“a
habeas petition raising a double jeopardy challenge to
a petitioner’s pending retrial in state court is properly
treated as a petition pursuant 28 U.S.C. § 2241”).7 A

7

A habeas petition under Section 2241 is subject to both the Rules
Governing Section 2254 Cases in the United States District Courts
and the Federal Rules of Civil Procedure. See 28 U.S.C. foll. § 2254
(“Habeas Rules”), Rule 1(b) (court may apply rules to habeas
petitions other than petitions filed under § 2254), and Rule 12
(Federal Rules of Civil Procedure apply to habeas actions if not
inconsistent with governing statutes and rules); see also United
States v. Rice, No. CR 12-00818 PJH, 2013 WL 12063970, at *1
(N.D. Cal. Feb. 27, 2013) (recognizing applicability of rules to

App. 23
petition under Section 2241, unlike one under 28
U.S.C. § 2254, is not subject to the heightened
standards set forth in Section 2254(d). Stow v.
Murashige, 389 F.3d 880, 886 (9th Cir. 2004). That is,
a Section 2241 petitioner need not show that the state
court decision was contrary to or an unreasonable
application of clearly established federal law, as
required by Section 2254(d). Id. at 888. Further,
Deedy’s Section 2241 Petition “is not reviewed under
the deferential standards imposed by AEDPA.” Wilson,
554 F.3d at 828; Harrison v. Gillespie, 640 F.3d 888,
897 (9th Cir. 2011) (en banc). Rather, a federal court
must grant habeas relief if it concludes “on de novo
review that retrying him on [the] charges would violate
the Double Jeopardy Clause.” Wilson, 554 F.3d 828;
Frantz v. Hazey, 533 F.3d 724, 736 (9th Cir. 2008)
(“Further, the text of both § 2254(a) and § 2241(c)
refers only to the substantive invalidity of the
confinement under the Constitution and contains no
requirement of deference to state court adjudications.
Federal courts governed only by those sections,
therefore, necessarily decide the issues before them de
novo, as was done before AEDPA’s addition of § 2254(d)
in 1996.”)

Section 2241 petitions); Lane v. Feather, 584 F. App’x 843 (9th Cir.
2014) (citing Rule 1(b) and stating that the district court did not
err in applying Rule 4 of the Habeas Rules to a Section 2241
Petition).

App. 24
DISCUSSION
I. The Motion to Strike Is Denied
Respondent Kaneshiro moves to strike the Petition
and Memorandum in Support for alleged noncompliance with procedural and substantive
requirements of Sections 2241 and 2242. The Motion to
Strike is DENIED.8
Although not signed by Deedy, the Petition is signed
by his counsel of record, and is therefore “verified by
the person for whose relief it is intended or by someone
acting in his behalf,” as required by Section 2242.9 See

8

Respondent Kaneshiro also asks the Court to strike Deedy’s
Memorandum in Support of his Petition based on violations of this
Court’s Local Rules. For instance, the Memorandum in Support did
not include a table of contents or table of authorities, as required
by LR7.5(f) for any pleading exceeding 15 pages. Deedy remedied
the deficiencies by filing the required tables on May 20, 2018. Dkt.
No. 20. Further, although Respondent correctly notes that Deedy’s
Memorandum in Support is 37 pages long, contains 9,708 words,
and was filed without a certificate of word count in violation of
LR7.5, the Court declines to strike the filing on this basis,
particularly in the absence of any showing of prejudice. Preez v.
Banis, No. CV 14-00171 LEK, 2014 WL 3427352, at *2 (D. Haw.
July 14, 2014) (“[E]ven if there was a violation, it is a minor
violation, and this Court has the discretion to decide whether or
not it is appropriate to strike the document.”); United States v.
Hempfling, 431 F. Supp. 2d 1069, 1087 (E.D. Cal. 2006) (“A district
court has broad discretion over the application of its own local
rules and it may overlook violations where there is no indication
that the opposing party is prejudiced.”) (citing Green v. Baca, 306
F. Supp. 2d 903, 913 n.40 (C.D. Cal. 2004)).
9

See, e.g., Pet. ¶ 9 (“The undersigned is Deedy’s retained counsel
of record in the state courts. The petitioner has not signed this

App. 25
also Habeas Rule 2(c)(5) of the Rules Governing Section
2254 Cases in the United States District Courts
(“Habeas Rules”) (petition must be signed under
penalty of perjury by the petitioner or by a person
authorized to sign it for the petitioner under Section
2242). Indeed, the law of this Circuit permits “a habeas
petitioner’s attorney [to] sign and verify the petition for
the petitioner.” Lucky v. Calderon, 86 F.3d 923, 925
(9th Cir. 1996). Even if that were not true, “the defect
is one that the district court may, if it sees fit,
disregard.” Johnson v. Gomez, 1997 WL 703770, at *3
(N.D. Cal. Oct. 28, 1997), aff’d, 166 F.3d 343 (9th Cir.
1998) (citing Hendricks v. Vasquez, 908 F.2d 490, 491
(9th Cir. 1990)). Accordingly, Respondent’s Motion to
Strike is denied on this ground.
Respondent Kaneshiro also moves to strike the
Petition because it allegedly names the wrong
defendant: “Deedy is not in the physical custody of the
Acting Attorney General, Director of Dept. of Public
Safety, and/or Respondent Kaneshiro,” none of whom
can afford him the habeas relief he seeks. Motion to
Strike at 4, Dkt. No. 14. As discussed more fully below,
the Court’s federal habeas jurisdiction over Deedy’s
double jeopardy claims lies under Section 2241, rather
than Section 2254. Harrison v. Gillespie, 640 F.3d 888,
896 (9th Cir. 2011) (en banc); Wilson v. Belleque, 554
F.3d 816, 828 (9th Cir. 2009); Stow v. Murashige, 389

motion because he resides on the mainland. Counsel declares he
has the authority to sign for the petitioner.”); Pet. ¶ 11 (“Counsel
declares under penalty of law that the representations set forth
above are true and correct to the best of his knowledge and
belief.”).

App. 26
F.3d 880, 888 (9th Cir. 2004). As Wilson recognizes,
“custody” is defined broadly and “has not been
restricted to situations in which the applicant is in
actual, physical custody.” 554 F.3d at 822 (quotation
marks and citation omitted). Instead, the “custody”
requirement is satisfied when there is a “significant
restraint” on a person’s liberty that is not shared by the
public generally. Id. Section 2241’s custody
requirement, which is not tied to a state court
judgment, is satisfied here because Deedy is on bail
and under pretrial release conditions, the revocation of
which could result in pretrial detention.10 Boston Mun.
Court v. Lydon, 466 U.S. 294, 300–302 (1984) (pretrial
release on personal recognizance sufficient to establish
Section 2241 custody); Wilson, 554 F.3d at 821–22
(custodial requirement met in cases involving prisoners
released on parole, on their own recognizance, and free
on bail).
Although Deedy does not name the specific “Oahu
Intake Service Center Officer” who has direct
supervision responsibilities over him, he is permitted
to name “as respondent the entity or person who
exercises legal control with respect to the challenged
‘custody.’” Rumsfeld v. Padilla, 542 U.S. 426, 438
(2004). To the extent the Director of the Department of
Public Safety exercises legal control over Deedy’s
10

See Gouveia v. Espinda, No. CV 17-00021 SOM/KJM, 2017 WL
3687309, at *6 (D. Haw. Aug. 25, 2017) (“[Petitioner] is on
‘supervised release’ in the [Hawaii] state system, which, unlike
‘supervised release’ in the federal system, occurs pretrial.
[Petitioner] is, in essence, equivalent to a federal defendant who is
subject to pretrial release conditions monitored by a United States
Pretrial Services Officer.”).

App. 27
pretrial “custody” in his state court case, Espinda is a
properly-named respondent.11 Likewise, Respondents
do not dispute that the Prosecuting Attorney and/or the
State Attorney General, are persons whom this Court
could lawfully order to obtain dismissal of the pending
circuit court action and rescission of Deedy’s bail. See
also Gouveia v. Espinda, No. CV 17-00021 SOM/KJM,
2017 WL 3687309, at *6 (D. Haw. Aug. 25, 2017)
(finding no impropriety where Section 2241 petitioner,
raising double jeopardy claims, named as respondents
the Director of the Department of Public Safety and the
Attorney General of the State of Hawaii). The Court
accordingly denies the Motion to Strike on this basis as
well.
II. No Jurisdictional or Procedural
Precludes the Court’s Review

Defect

Before consideration of the merits, the Court
addresses the jurisdictional and procedural arguments
that compose the greater part of Respondents’
opposition to Deedy’s Petition. As explained below,
each of Respondents’ arguments challenging the
Court’s habeas jurisdiction under Section 2241,
advocating the application of the Rooker-Feldman
doctrine, and asserting Deedy’s purported waiver

11

Respondent Kaneshiro does not dispute that the intake services
employee that he asserts is the only appropriately named
respondent is an employee of the Department of Public Safety,
whose director, Nolan Espinda, is one of the named respondents.
Nor does Kaneshiro dispute that Espinda has authority over DPS
intake services division employees and any matters those
employees are authorized by him to undertake in the scope of their
employment.

App. 28
and/or forfeiture of his federal double jeopardy claims
is without merit.
A. The Court Has Jurisdiction Under Section
2241
Respondents first contend that “Congress has not
conferred jurisdiction to federal district courts to
review judgments rendered by a State’s highest court
being attacked in a petition brought under § 2241.”
Mem. in Opp’n at 7, Dkt. No. 21-1. This assertion is
inconsistent with federal law.
“[I]t is § 2241 that provides generally for the
granting of writs of habeas corpus by federal courts,
implementing ‘the general grant of habeas authority
provided by the Constitution.’” Frantz v. Hazey, 533
F.3d 724, 735 (9th Cir. 2008) (quoting White v.
Lambert, 370 F.3d 1002, 1006 (9th Cir.), cert. denied,
543 U.S. 991 (2004)). In Boston Municipal Court v.
Lydon, 466 U.S. 294, 299–303 (1984), the Supreme
Court itself approved of federal court habeas review of
a state defendant’s double jeopardy claims before the
onset of a state retrial. The Ninth Circuit has done so
too. See, e.g., Hartley v. Neely, 701 F.2d 780, 781 (9th
Cir. 1983) (per curiam) (“Indeed, we are convinced that
a petitioner in state custody can only be assured
freedom from double jeopardy by giving him access to
habeas review prior to a second trial. We therefore hold
that pretrial habeas corpus review is appropriate in
those cases where, as here, all other state remedies
were exhausted.”); Mannes v. Gillespie, 967 F.2d 1310,
1312 (9th Cir. 1992) (“Because full vindication of the
right necessarily requires intervention before trial,
federal courts will entertain pretrial habeas petitions

App. 29
that raise a colorable claim of double jeopardy.”); Stow,
389 F.3d at 888–92 (finding federal jurisdiction proper
under Section 2241 and granting petition on double
jeopardy claim before impending retrial).12
Accordingly, as recognized by the Ninth Circuit, this
Court’s habeas jurisdiction lies properly under Section
2241.
B. The Rooker-Feldman Doctrine Is No Bar to
this Court’s Federal Habeas Jurisdiction
Despite the evident jurisdictional basis for this
Court to consider Deedy’s Section 2241 Petition,
Respondents interestingly allocate a significant portion
of their brief to the flawed assertion that federal courts
lack habeas jurisdiction over a double jeopardy claim
challenging a pending prosecution in state court.
Respondents do so on account of their muddled
application of the Rooker-Feldman doctrine.13 See Mem.
12

Notably, “the federal circuit courts which have specifically
addressed this issue have uniformly held that a pretrial petition
seeking to preclude a re-trial is properly brought pursuant to
§ 2241.” Hoffler v. Bezio, 831 F. Supp. 2d 570, 575 (N.D.N.Y. 2011),
aff’d, 726 F.3d 144 (2d Cir. 2013) (citing cases); Walck v.
Edmondson, 472 F.3d 1227, 1235 (10th Cir. 2007); Jacobs v.
McCaughtry, 251 F.3d 596, 597 (7th Cir. 2001) (per curiam);
Stringer v. Williams, 161 F.3d 259, 262 (5th Cir. 1998)); Palmer v.
Clarke, 961 F.2d 771 (8th Cir. 1992).
13

See District of Columbia Court of Appeals v. Feldman, 460 U.S.
462, 482–86 (1983); Rooker v. Fidelity Trust Co., 263 U.S. 413,
415–16 (1923). This rule, commonly known as the Rooker-Feldman
doctrine, bars a losing party in state court from seeking what
amounts to appellate review of the state-court judgment in federal
court based on the losing party’s claim that the state judgment

App. 30
in Opp’n at 3–19. The primary source of their
confusion, as best the Court can discern, is the
conflation of direct appellate review and collateral
review, and their associated discussion of Supreme
Court certiorari jurisdiction under 28 U.S.C. § 1257
and federal habeas jurisdiction under Section 2241.
Ninth Circuit law explicitly recognizes federal
district court habeas jurisdiction in cases such as this
one. Ninth Circuit law is equally clear that the RookerFeldman doctrine has no place in habeas jurisprudence
and does not serve to limit federal district court habeas
jurisdiction, as it does in other contexts. Respondents
refuse to recognize the import of these cases. Instead,
they insist that because the “Supreme Court [itself] did
not render the decisions in any of the cases, the [Ninth
Circuit] holdings therein cannot overrule or modify the
holdings in Rooker or Feldman.” Mem. in Opp’n at 15
(emphasis added). Respondents further argue that only
the United States Supreme Court, under 28 U.S.C.
§ 1257, and not any other federal court, may consider
Deedy’s instant Petition. Respondents’ arguments are
entirely without merit or even practical sense.
First, Section 1257 has no present application to
Deedy’s Section 2241 Petition.14 As noted above,
itself violates the loser’s federal rights. See Bennett v. Yoshina, 140
F.3d 1218, 1223 (9th Cir. 1998).
14

The statute provides in relevant part:
(a) Final judgments or decrees rendered by the highest
court of a State in which a decision could be had, may be
reviewed by the Supreme Court by writ of certiorari where
the validity of a treaty or statute of the United States is

App. 31
Section 2241 is the proper vehicle for his double
jeopardy claim in federal district court. Deedy is not
limited to taking a direct appeal of the Hawaii
Supreme Court’s decision, by writ of certiorari, to the
United States Supreme Court under Section 1257. See
Cty. Court of Ulster Cty., N.Y. v. Allen, 442 U.S. 140,
149 n.7 (1979) (rejecting jurisdictional argument “that
habeas corpus review was unavailable in advance of a
petition for certiorari” under Section 1257, because
Section 2254(a) “gives federal courts jurisdiction ‘to
entertain an application for a writ of habeas corpus in
behalf of a person in custody pursuant to the judgment
of a State court’ if that custody allegedly violates ‘the
Constitution or laws or treaties of the United States’
. . . there is no statutory requirement of an appeal to
this Court as a predicate to habeas jurisdiction”). To be
clear, direct review of a state court judgment under
Section 1257 is neither required of a habeas petitioner
nor is it the functional equivalent of habeas review.15

drawn in question or where the validity of a statute of any
State is drawn in question on the ground of its being
repugnant to the Constitution, treaties, or laws of the
United States, or where any title, right, privilege, or
immunity is specially set up or claimed under the
Constitution or the treaties or statutes of, or any
commission held or authority exercised under, the United
States.
28 U.S.C. § 1257.
15

See Coleman v. Thompson, 501 U.S. 722, 730 (1991) (“When [the
Supreme] Court reviews a state court decision on direct review
pursuant to 28 U.S.C. § 1257, it is reviewing the judgment; if
resolution of a federal question cannot affect the judgment, there
is nothing for the Court to do. This is not the case in habeas. When

App. 32
Second, it is well-established that the RookerFeldman doctrine does not touch the writ of habeas
corpus. This Court is bound by Ninth Circuit precedent,
which is unequivocal: habeas jurisdiction is a
“statutory exception” to Rooker-Feldman.
Under the modern statutory structure, the
principle that there should be no appellate
review of state court judgments by federal
trial courts has two particularly notable
statutory exceptions: First, a federal district
court has original jurisdiction to entertain
petitions for habeas corpus brought by state
prisoners who claim that the state court has
made an error of federal law. 28 U.S.C.
§ 2254. Second, a federal bankruptcy court
has original jurisdiction under which it is
“empowered to avoid state judgments, see,
e.g., 11 U.S.C. §§ 544, 547, 548, 549; to
modify them, see, e.g., 11 U.S.C. §§ 1129,
1325; and to discharge them, see, e.g., 11
U.S.C. §§ 727, 1141, 1328.” In re Gruntz, 202
F.3d at 1079.
Noel v. Hall, 341 F.3d 1148, 1155 (9th Cir. 2003);
Gouveia, 2017 WL 3687309, at *6 (“[I]t is well settled

a federal district court reviews a state prisoner’s habeas corpus
petition pursuant to 28 U.S.C. § 2254, it must decide whether the
petitioner is ‘in custody in violation of the Constitution or laws or
treaties of the United States.’ The court does not review a
judgment, but the lawfulness of the petitioner’s custody
simpliciter.”).

App. 33
that the Rooker-Feldman doctrine is inapplicable to
cases seeking habeas corpus relief.”).16
The reasons for this exception are clear, and its
existence, in practice, is beyond serious dispute.
Respondents, however, remain silent with respect to
the authoritative case law (including several cases
cited in Deedy’s Petition), which illustrates the wellestablished rule that state court defendants are
entitled to seek habeas relief in lower federal courts
before retrial in light of “the unique nature of the
double jeopardy right.” Lydon, 466 U.S. at 302–303.
These decisions, binding on this Court, are “based upon
the special nature of the double jeopardy right and the
recognition that the right cannot be fully vindicated on
appeal following final judgment, since in part the
Double Jeopardy Clause protects ‘against being twice

16

See also Exxon Mobil Corp. v. Saudi Basic Indus. Corp., 544 U.S.
280, 292 & n.8 (2005) (“Because § 1257, as long interpreted, vests
authority to review a state court’s judgment solely in this Court,
the District Courts in Rooker and Feldman lacked subject-matter
jurisdiction. . . . Congress, if so minded, may explicitly empower
district courts to oversee certain state-court judgments and has
done so, most notably, in authorizing federal habeas review of
state prisoners’ petitions.”) (citing 28 U.S.C. § 2254(a)) (other
citations omitted); Gonzalez-Diaz v. Lopez, 957 F. Supp. 2d 143,
147–48 n.2 (D.P.R. 2013) (“Because respondents’ arguments
regarding these legal doctrines do not apply to habeas petitions,
the Court does not analyze these arguments in its discussion. ‘The
Rooker–Feldman doctrine—with certain exceptions (e.g., habeas
corpus)—precludes a lower federal court from entertaining a
proceeding to reverse or modify a state judgment or decree to
which the assailant was a party.’”) (quoting Mandel v. Town of
Orleans, 326 F.3d 267, 271 (1st Cir. 2003) (emphasis in GonzalezDiaz)).

App. 34
put to trial for the same offense.’” Id. at 303 (quoting
Abney v. United States, 431 U.S. 651, 661 (1977)). A
petitioner’s double jeopardy rights, like habeas review
itself, “protects interests wholly unrelated to the
propriety of any subsequent conviction[;] a requirement
that a defendant run the entire gamut of state
procedures, including retrial, prior to consideration of
his claim in federal court, would require him to
sacrifice one of the protections of the Double Jeopardy
Clause.” Id. (citation and quotation marks omitted); see
also Mannes v. Gillespie, 967 F.3d 1310, 1312 (9th Cir.
1992) (“Because full vindication of the right necessarily
requires intervention before trial, federal courts will
entertain pretrial habeas petitions that raise a
colorable claim of double jeopardy.”); Hartley v. Neely,
701 F.2d 780, 781 (9th Cir. 1983) (per curiam) (“a
petitioner in state custody can only be assured freedom
from double jeopardy by giving him access to habeas
review prior to a second trial”).
Even if Respondents were correct, they offer no
plausible or practical explanation for what would
remain of a state defendant’s double jeopardy rights in
the absence of federal district court habeas review. If
limited to seeking certiorari from the United States
Supreme Court, it is unlikely that meaningful review
would be timely available to most state court
defendants seeking pretrial redress for double jeopardy
claims. This runs afoul of long-standing precedent, and
if followed to its logical end, “the rights conferred on a
criminal accused by the Double Jeopardy Clause would
be significantly undermined if appellate review of
double jeopardy claims were postponed until after
conviction and sentence.” Abney, 431 U.S. at 660–61.

App. 35
Indeed, these “protections would be lost if the accused
were forced to ‘run the gauntlet’ a second [and third]
time before an appeal could be taken; even if the
accused is acquitted, or, if convicted, has his conviction
ultimately reversed on double jeopardy grounds, he has
still been forced to endure a trial that the Double
Jeopardy Clause was designed to prohibit.” Id. at 662.
This cannot be so.
Because this Court has habeas jurisdiction under
Section 2241, unimpeded by the Rooker-Feldman
doctrine, it rejects Respondents’ arguments to the
contrary.
C. Deedy Neither Waived Nor Forfeited His
Double Jeopardy Claims
Respondents assert the factually and legally
deficient argument that “Deedy’s decision not to file his
motion asserting his federal double jeopardy claims
until months after the retrial concluded reveals a
failure to pursue the claims in a timely and diligent
manner that supports the conclusion he
waived/forfeited the same.” Mem. in Opp’n at 21. They
are mistaken.
The record reflects that Deedy raised all of the
grounds asserted in his Petition before the second trial
commenced, during the course of the second trial, and
then again when he moved to dismiss the charges after
the second trial concluded. Exs. H, K & L. How one can
even begin to claim waiver on this record is a mystery.
Nor would Respondents achieve any greater success
by framing their contentions as a failure to exhaust.
“As a prudential matter, courts require that habeas

App. 36
petitioners exhaust all available judicial and
administrative remedies before seeking relief under
§ 2241.” Ward v. Chavez, 678 F.3d 1042, 1045 (9th Cir.
2012) (citing Cooper v. Neven, 641 F.3d 322, 326–27
(9th Cir. 2011)). To properly exhaust, a petitioner must
fairly present each ground for relief to the state’s
highest court, and must give that court the opportunity
to address and resolve it. See Duncan v. Henry, 513
U.S. 364, 365 (1995); Keeney v. Tamayo–Reyes, 504 U.S.
1, 10 (1992). The “fair presentation” requirement is
satisfied when the claim has been presented to the
highest state court by describing the operative facts
and the legal theory upon which the federal claim is
based. See Anderson v. Harless, 459 U.S. 4, 6 (1982);
Batchelor v. Cupp, 693 F.2d 859, 862 (9th Cir. 1982).
The state court record set forth above clearly
demonstrates that Deedy raised his double jeopardy
concern before the second trial commenced, when he
asked the circuit court to preclude instructing the jury
on reckless manslaughter, arguing that the court’s
prior instructional ruling during the first trial acted as
an acquittal of that offense under Evans v. Michigan.
Ex. K. He argued those claims again during the second
trial in the context of settling the jury instructions. Ex.
L. And he then filed a motion to dismiss on state and
federal double jeopardy grounds, presenting those
claims once again to the circuit court after the second
trial had ended. When the circuit court denied that
motion, Ex. H, Deedy appealed the denial to the state
appellate courts, contending that his state and federal
rights to be free of double jeopardy had been violated.
See Deedy, 141 Hawai’i 208, 407 P.3d 164. And after
the Hawaii Supreme Court affirmed the circuit court,

App. 37
he filed his Petition raising the very same federal
issues. Under these circumstances, Deedy properly
exhausted his Fifth Amendment double jeopardy claim.
The Court next turns to the merits of Deedy’s
Petition.
III. Deedy’s Section 2241 Petition Is Granted
Deedy raises three grounds for relief, each seeking
to vindicate his right against double jeopardy under the
Fifth Amendment to the United States Constitution.
For the reasons that follow, the Court determines that
double jeopardy bars further prosecution in the state
courts because the circuit court acquitted Deedy of
reckless manslaughter. The circuit court did so by
ruling, at Deedy’s first trial, that there was no
“evidence to support manslaughter” because the State
had not shown that the “lethal shot” was “reckless.”
Because the Court finds in Deedy’s favor on the first
ground asserted in his Petition, it does not reach his
alternative claims of collateral estoppel and
abandonment.
A. Legal Framework: Acquittal Standard
Under Evans
The Fifth Amendment’s Double Jeopardy Clause
protects a person from being “twice put in jeopardy of
life or limb” for the same offense. “This guarantee
recognizes the vast power of the sovereign, the ordeal
of a criminal trial, and the injustice our criminal justice
system would invite if prosecutors could treat trials as
dress rehearsals until they secure the convictions they
seek.” Currier v. Virginia, 138 S. Ct. 2144, 2149 (2018).
Jeopardy attaches in a jury trial “when the jury is

App. 38
empaneled and sworn.” United States v. Gaytan, 115
F.3d 737, 742 (9th Cir. 1997). “The protection of the
Double Jeopardy Clause by its terms applies only if
there has been some event, such as an acquittal, which
terminates the original jeopardy.” Richardson v. United
States, 468 U.S. 317 (1984). An acquittal occurs when
a factfinder’s decision at trial, “whatever its label,
actually represents a resolution, correct or not, of some
or all of the factual elements of the offense charged.”
United States v. Martin Linen Supply Co., 430 U.S.
564, 572 (1977).
Deedy’s primary claim invokes Evans v. Michigan,
568 U.S. 313 (2013). Evans establishes that “any ruling
that the prosecution’s proof is insufficient to establish
criminal liability for an offense” is an acquittal that
precludes retrial. Id. at 318 (citing United States v.
Scott, 437 U.S. 82, 98 & n.11 (1978); Burks v. United
States, 437 U.S. 1, 10 (1978); Martin Linen Supply Co.,
430 U.S. at 571). Evans identifies three types of
“substantive rulings” that satisfy this acquittal
standard:
[1] “a ruling by the court that the evidence is
insufficient to convict,” [2] a “factual finding
[that] necessarily establish[es] the criminal
defendant’s lack of criminal culpability,” and
[3] any other “rulin[g] which relate[s] to the
ultimate question of guilt or innocence.”
These sorts of substantive rulings stand
apart from procedural rulings that may also
terminate a case midtrial, which we
generally refer to as dismissals or mistrials.
Procedural dismissals include rulings on

App. 39
questions that “are unrelated to factual guilt
or innocence,” but “which serve other
purposes,” including “a legal judgment that a
defendant, although criminally culpable, may
not be punished” because of some problem
like an error with the indictment.
Id. at 318–19 (quoting Scott, 437 U.S. at 91, 98, and
n.11) (some alterations in Evans).
In Evans, the Supreme Court concluded that the
state defendant’s midtrial acquittal barred retrial
under double jeopardy principles, even though the
acquittal was based on the trial court’s “clear
misunderstanding of what facts the State needed to
prove” to sustain a conviction for arson. Id. at 316. The
state trial court, persuaded by applicable, but
erroneous Michigan Criminal Jury Instructions,
concluded the state was required to prove, as an
element of arson, that the burned property was not a
dwelling house, notwithstanding Michigan law to the
contrary. Id. at 316–17. After the trial court
erroneously granted a judgment of acquittal, the state
sought retrial in view of the error. The state supreme
court rejected defendant’s double jeopardy claim,
concluding instead that when a trial court grants a
defendant’s motion for a directed verdict on the basis of
an error of law that did not resolve any factual element
of the charged offense, the trial court’s ruling does not
constitute an acquittal for the purposes of double
jeopardy. Id. The Supreme Court reversed, holding
that, despite the error, the acquittal was a final
judgment. Id. at 316–18. Evans reasoned, “‘the fact
that the acquittal may result from erroneous

App. 40
evidentiary rulings or erroneous interpretations of
governing legal principles affects the accuracy of that
determination, but it does not alter its essential
character.’” Id. at 318 (quoting Scott, 437 U.S. at 98).
The Supreme Court determined that further retrial
was barred due to the “acquittal,” holding: “[W]e know
the trial court acquitted Evans . . . because it acted on
its view that the prosecution had failed to prove its
case.” Id. at 325.
Utilizing this framework, the Court turns to the
facts at hand.
B. The Circuit Court’s Instructional Ruling
During the First Trial Is, For Double
Jeopardy Purposes, an Acquittal
As detailed below, Deedy may not be retried for
reckless manslaughter because the circuit court’s
ruling at the first trial—that there was no rational
basis in the evidence to support a reckless
manslaughter jury instruction—constituted an
acquittal for purposes of double jeopardy. Here, as was
the case in Evans, “‘it is plain that the [circuit court] ...
evaluated the [State’s] evidence and determined that it
was legally insufficient to sustain a conviction.” Evans,
568 U.S. at 320 (quoting Martin Linen, 430 U.S. at 572)
(alterations in Evans).
Under applicable state law, the circuit court was
required to give the jury an instruction “as to any
included offenses when ‘there is a rational basis in the
evidence for a verdict acquitting the defendant of the
offense charged and convicting the defendant of the
included offense.’” State v. Haanio, 94 Hawai’i 405, 413,

App. 41
16 P.3d 246, 254 (2001) (quoting HRS § 701-109(5)
(1993)), overruled on other grounds by State v. Flores,
131 Hawai’i 43, 314 P.3d 120 (2013); accord Flores, 131
Hawai’i at 51, 314 P.3d at 128 (“[J]ury instructions on
lesser-included offenses must be given where there is
a rational basis in the evidence for a verdict acquitting
the defendant of the offense charged and convicting the
defendant of the included offense.”). Notwithstanding
this obligation, at Deedy’s first trial, the circuit court
declined to instruct the jury on lesser included offenses,
including reckless manslaughter, because the evidence
was insufficient to do so. The circuit court declared, “I
don’t think there’s any evidence to support
manslaughter.” 8/13/13 Tr. at 46.17
The circuit court’s instructional ruling
demonstrably falls within the parameters of each of the
three categories of “substantive rulings” described in
Evans and is therefore, an acquittal. First, it was “a
ruling by the [circuit] court that the evidence is
insufficient to convict.” Evans, 568 U.S. at 318 (citation
and quotation marks omitted). As was the case in
Evans, the circuit court here was required to evaluate
the evidence before determining whether it supported
giving the lesser included instruction to the jury.
Compare Evans, 568 U.S. at 320 (“The trial court
granted Evans’ motion under a rule that requires the
court to ‘direct a verdict of acquittal on any charged

17

This surprised no one, as the parties themselves agreed that
there was no evidence of recklessness and jointly asked the circuit
court not to instruct on the lesser included offenses. Indeed, that
continued to be both parties’ consistent position not only through
the first trial, but through the second trial as well.

App. 42
offense as to which the evidence is insufficient to
support conviction.’”) (citation omitted). Likewise, the
circuit court’s “oral ruling leaves no doubt that it made
its determination on the basis of ‘[t]he testimony’ that
the State had presented.” Id. (citation omitted).18 See
also Smalis v. Pennsylvania, 476 U.S. 140, 144 (1986)
(“the category of acquittals includes ‘judgment[s] … by
the court that the evidence is insufficient to convict”)
(quoting Scott, 437 U.S. at 91). Second, the
determination that there was not “any evidence to
support manslaughter”—e.g., no evidence that the
“lethal shot” was “reckless”—was a “factual finding
[that] necessarily establish[es] the criminal defendant’s
lack of criminal culpability.” Evans, 568 U.S. at 319
(citation and quotation marks omitted). It is axiomatic
that if there was no evidence of recklessness, Deedy
could not have had the culpability necessary to commit
reckless manslaughter or its included offenses. Third,
the circuit court’s ruling “relate[s] to the ultimate
question of guilt or innocence.” Evans, 568 U.S. at 319
(citation and quotation marks omitted). The circuit
court’s instructional “ruling was not a dismissal on a
procedural ground ‘unrelated to factual guilt or
innocence,’ like the question of ‘preindictment delay’
. . . , but rather a determination that the State had
failed to prove its case” on the reckless manslaughter
offense, based upon the evidence presented, and thus

18

When objecting to a reckless manslaughter instruction at the
second trial, the State acknowledged that “[i]n the first trial . . .
[the circuit court] made its original decision based on the evidence
presented in the first trial, and based on the appropriate standard
at the time.” Pet. Ex. A at 5 (11/25/15 Opening Br.) (quoting RA9
294), Dkt. No. 1-2.

App. 43
related “to the ultimate question of guilt or innocence.”
Evans, 568 U.S. at 318–19 (quoting Scott, 437 U.S. at
98, 99).19
Respondents do little to challenge the application of
Evans to the facts of this case. Instead, they quarrel
with the weight to be given to the circuit court’s
instructional ruling. In Respondents’ estimation,
because the circuit court’s ruling came during what
they characterize as an “informal” proceeding to
discuss the verdict form, it could not possibly constitute
an acquittal of any offense. Mem. in Opp’n at 23, 28.
Respondents place far too much weight on the
environment in which the ruling was issued, and far

19

In its decision affirming the circuit court, the Hawaii Supreme
Court acknowledged the three categories of rulings that satisfy the
“acquittal” standard under Evans, but did not analyze whether
each type was applicable on the record before it. Instead, the court
appeared moved by the State’s effort to distinguish Evans on the
basis that it involved a motion for a judgment of acquittal. 141
Hawai’i at 218, 407 P.3d at 174 n.5. The court also placed great
weight on HRPP 29. According to the court, the circuit court’s
instructional ruling could not have amounted to an acquittal as a
matter of law because there had been no acquittal on the greater
charge, and until that occurred, HRPP 29 would have prohibited
an acquittal on the lesser charges. Id. at 218–19, 407 P.3d at
174–75 (“[t]his rule provides no authority for a trial court to acquit
a defendant of an included offense without first acquitting the
defendant of the greater charge”). The court’s reliance on HRPP
29, however, is misplaced. Evans teaches that an acquittal is an
acquittal for double jeopardy purposes even when the acquittal is
issued contrary to law. Evans, 568 U.S. at 320. Nor does HRPP 29
alter this Court’s double jeopardy analysis, following Evans, which
does not demand acquittal on the second-degree murder charge
before or in addition to acquittal on the lesser included offenses.

App. 44
too little weight on what the ruling actually said and
did. As an initial matter, the circuit court’s ruling
occurred on the record in open court, not in some
unrecorded, unmemorialized back room proceeding.
Moreover, neither the label of the ruling, nor the
perceived formality of the proceeding matters.
In Martin Linen, the Court was presented
with the question of whether the government
could appeal the trial court’s dismissal of an
indictment, or whether the appeal was
barred by the Double Jeopardy Clause. The
answer turned on whether the judge’s
dismissal of the case constituted an
“acquittal.” The Court stated that “we must
determine whether the ruling of the judge,
whatever its label, actually represents a
resolution, correct or not, of some or all of the
factual elements of the offense charged.” In
examining the judge’s order dismissing the
case, the Court explained that “[t]here can be
no question that the judgments of acquittal
entered here by the District Court were
‘acquittals in substance as well as form”
because the judge found the prosecution had
failed to present sufficient evidence to meet
its burden.
The State’s reliance on the “form” versus
“substance” distinction takes out of context
Martin Linen’s discussion of the relevant
appellate court inquiry into a judge’s order
terminating a case in favor of the defendant.
We have found no case, other than the

App. 45
Hawaii Supreme Court decision in Stow, that
has applied this test to a jury’s “not guilty”
verdict. To do so would divorce the test from
its rationale—i.e., to determine if the trial
court terminated the case for insufficiency of
the evidence or for a matter unrelated to the
merits, like pre-indictment delay.
Stow v. Murashige, 389 F.3d 880, 889–90 (9th Cir.
2004) (citing 430 U.S. at 566–67) (footnote omitted).
Here, the circuit court’s decision was based upon its
substantive view of the sufficiency of the evidence. It
was not a procedural decision, such as a dismissal for
pre-indictment delay that was unrelated to factual
guilt or innocence. See United States v. Blanton, 476
F.3d 767, 770–71 (9th Cir. 2007) (holding that double
jeopardy prohibited appeal by the government because
the judge’s ruling of acquittal was not “unrelated to
factual guilt or innocence”). Equally important, the fact
that the circuit court did not label its decision as an
“acquittal” or pursuant to Rule 29 is of no consequence.
And certainly, the fact that the ruling was issued in
what the State refers to as an “informal” proceeding is
of even less consequence. Under Martin Linen and
Evans and Stow, the circuit court’s instructional ruling,
regardless of its label and regardless of its so-called
informality, stands as an acquittal.
Further, the circuit court’s characterization of its
own action cannot control the classification. See Delap
v. Bugger, 890 F.2d 285, 307 (11th Cir. 1989) (“The
refusal to instruct a jury on an offense constitutes an
implicit acquittal of that offense for double jeopardy
purposes. . . . The trial judge’s characterization of his or

App. 46
her actions does not control whether there was an
‘acquittal’ for double jeopardy purposes.”) (citing Saylor
v. Cornelius, 845 F.2d 1401, 1403–05 (6th Cir. 1988)).20
Accordingly, the circuit court’s remark during the
settling of jury instructions during Deedy’s second trial
in 2014, characterizing its own prior decision as
something other than “based on guilt or innocence,” is
of no moment. See 8/1/14 Tr. at 26–27. Evans makes
clear that even if the circuit court believes in hindsight
that it was erroneous to find that the evidence did not
support submitting reckless manslaughter to the jury,
that ruling was nonetheless an acquittal that bars
retrial of that offense under principles of double

20

In Delap, the defendant was acquitted of “felony murder” at his
first trial, but that acquittal did not bar his second conviction for
“premeditated murder.” The reviewing court determined that:
the finding that there was insufficient evidence of felony
murder constituted an acquittal of felony murder, barred
any appeal of that acquittal, and barred any further
prosecution for that felony murder. Smalis v.
Pennsylvania, 476 U.S. 140, 142 (1986) (judgment that
evidence is legally insufficient to sustain a guilty verdict
constituted an acquittal for double jeopardy purposes);
Burks v. United States, 437 U.S. 1, 15–17 (1978). The state
certainly was aware of this when it voluntarily withdrew
its proposed felony murder instruction at Delap’s second
trial. Delap’s successful appeal of his first conviction
“wiped the slate clean” as to the premeditated murder
theory, but did nothing to disturb his acquittal of felony
murder.
Delap v. Dugger, 890 F.2d 285, 314 (11th Cir. 1989), abrogated on
other grounds by Floyd v. Sec’y, Fla. Dep’t of Corr., 638 Fed.Appx.
909, 924 (11th Cir. 2016) (per curiam).

App. 47
jeopardy.21 As directed by Evans, “[c]ulpability (i.e., the
‘ultimate question of guilt or innocence’) is the
touchstone, not whether any particular elements were
resolved or whether the determination of
nonculpability was legally correct.” Evans, 568 U.S. at
324 (citation omitted). The circuit court’s instructional
ruling during the first trial, determining that there was
no rational basis in the evidence to give an instruction
on reckless manslaughter, was necessarily a
determination that the evidence was insufficient to
establish Deedy’s criminal liability for the lesser
offenses. That, under Evans, is an acquittal.
The Court’s holding comports with the principles
animating federal double jeopardy jurisprudence. See
21

Nor is it significant whether the circuit court erred in not
submitting the lesser included offenses to the jury during the first
trial. Evans is clear that the correctness of the instructional ruling
does not factor into whether it counts as an acquittal for purposes
of double jeopardy—
There is no question the trial court’s ruling was wrong; it
was predicated upon a clear misunderstanding of what
facts the State needed to prove under State law. But that
is of no moment. Martin Linen, Sanabria, Rumsey, Smalis,
and Smith all instruct that an acquittal due to insufficient
evidence precludes retrial, whether the court’s evaluation
of the evidence was “correct or not,” Martin Linen, 430
U.S. at 571, and regardless of whether the court’s decision
flowed from an incorrect antecedent ruling of law. Here,
Evans’ acquittal was the product of an “erroneous
interpretatio[n] of governing legal principles,” but as in our
other cases, that error affects only “the accuracy of [the]
determination” to acquit, not “its essential character.”
Scott, 437 U.S. at 98 (internal quotation marks omitted).
Evans, 568 U.S. at 320.

App. 48
Yeager v. United States, 557 U.S. 110, 117–18 (2009)
(The Double Jeopardy Clause is largely based on “the
deeply ingrained principle that the State with all its
resources and power should not be allowed to make
repeated attempts to convict an individual for an
alleged offense[.]”) (internal quotation marks omitted).
Precluding further retrial in the circumstances of the
present case avoids any such abuse. Deedy’s Section
2241 Petition is granted.22
CONCLUSION
The Court grants Deedy’s Section 2241 Petition and
enjoins the State of Hawaii and/or Respondents from
reprosecuting, reindicting, or retrying him for reckless
manslaughter and any lesser included offenses,
including in Cr. No. 11-1-1647.
Further, the State of Hawaii and/or Respondents
are directed to dismiss the pending criminal case, Cr.
No. 11-1-1647, with prejudice. The Court stays this
dismissal requirement until such time as this case
becomes final, meaning that any and all appeals of this

22

Because the Court enjoins the State from further prosecuting
Deedy on reckless manslaughter, the same findings preclude
retrial of any other lesser included offenses under Count 1. In
order to reach the instructional ruling that it did at the first trial,
the circuit court necessarily determined that there existed no
rational basis in the evidence for the jury to acquit Deedy of
murder in the second degree and to convict him of either reckless
manslaughter, assault in the first degree or assault in the second
degree. Cf. State v. Kaeo, 132 Hawai’i 451, 465–67, 323 P.3d 95,
109–11 (2014). Moreover, Respondents do not contest that without
a predicate Count 1 felony offense, the State cannot proceed on the
related firearms charge in Count 2.

App. 49
Court’s orders and judgment have been completely
adjudicated.
The State of Hawaii and/or Respondents are also
directed to release Deedy from the conditions of bail
and of his supervised pretrial release. Unless the State
of Hawaii and/or Respondents obtain a stay of this part
of the Court’s order from the Ninth Circuit Court of
Appeals, the State of Hawaii and/or Respondents must
release Deedy from the terms of his supervised pretrial
release forthwith. This Court declines to stay this
portion of its order.
Finally, to ensure that each party’s rights are
safeguarded, the Court grants certificates of
appealability to the parties, to the extent required.23
See Slack v. McDaniel, 529 U.S. 473, 484 (2000) (party
challenging the court’s decision “must demonstrate
that reasonable jurists would find the district court’s
assessment of the constitutional claims debatable or

23

Generally, neither the State nor its representative needs to
obtain a certificate of appealability (“COA”) in order to pursue an
appeal. See Fed. R. App. P. 22(b)(3); see also Bradley v. Birkett, No.
2:03-CV-70740, 2006 WL 212024, at *2 n.4 (E.D. Mich. Jan. 27,
2006) (“Although 28 U.S.C. § 2253 appears to require a certificate
of probable cause even when an appeal is taken by a state or its
representative, the legislative history strongly suggests that the
intention of Congress was to require a certificate only in the case
in which an appeal is taken by an applicant for the writ.”) (quoting
Fed. R. App. P. 22(b)(3) advisory committee notes, 1967). However,
a state court defendant proceeding under § 2241 must obtain a
COA. Wilson, 554 F.3d at 825 (“[A] state prisoner who is
proceeding under § 2241 must obtain a COA under § 2253(c)(1)(A)
in order to challenge process issued by a state court.”).

App. 50
wrong”); see also Miller-El v. Cockrell, 537 U.S 322, 341
(2003).
Respondents’ Motion to Strike Deedy’s Petition,
Dkt. No. 14, is DENIED. Deedy’s Section 2241 Petition,
Dkt. No. 1, is GRANTED. The Clerk of Court is
directed to enter judgment in favor of Deedy and to
close this case.
IT IS SO ORDERED.
DATED: August 10, 2018 at Honolulu, Hawai’i.
[SEAL]

/s/Derrick K. Watson
United States District Judge

Deedy v. Suzuki, et al., CV. NO. 18-00094 DKW-RLP;
ORDER (1) DENYING MOTION TO STRIKE
PETITION; AND (2) GRANTING DEEDY’S
PETITION FOR WRIT OF HABEAS CORPUS
UNDER 28 U.S.C. § 2241

App. 51

APPENDIX C
AO 450 (Rev. 5/85) Judgment in a Civil Case
UNITED STATES DISTRICT COURT
DISTRICT OF HAWAII
Case: CV 18-00094 DKW-RLP
[Filed August 10, 2018]
___________________________________
CHRISTOPHER DEEDY
)
)
Petitioner,
)
)
V.
)
)
RUSSELL SUZUKI, Acting Attorney )
General, State of Hawaii; KEITH M. )
KANESHIRO, Prosecuting Attorney )
for the City and County of Honolulu; )
and NOLAND ESPINDA, Director,
)
Department of Public Safety, State of )
Hawaii
)
)
Respondents.
)
___________________________________ )
JUDGMENT IN A CIVIL CASE
[ ] Jury Verdict. This action came before the Court
for a trial by jury. The issues have been tried and
the jury has rendered its verdict.

App. 52
[T]

Decision by Court. This action came for
hearing before the Court. The issues have been
heard and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that
judgment is entered in favor of Petitioner
Christopher Deedy pursuant to the “Order
(1) Denying Motion to Strike Petition; and
(2) Granting Deedy’s Petition for Writ of Habeas
Corpus Under 28 U.S.C. § 2241”, filed on August
10, 2018, ECF No. 29. It is further ordered that
the Clerk of Court shall close this case.

August 10, 2018
Date

Clerk

SUE BEITIA

/s/ Sue Beitia by ET
(By) Deputy Clerk

